OFFICE OF THE ATTORNEY GENERAL
Amit Agarwal
Solicitor General
PL-01 The Capitol
Tallahassee, FL 32399-1050
Phone (850) 414-3681
Fax (850) 410-2672
Amit.Agarwal@myfloridalegal.com

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

December 14, 2020

VIA ELECTRONIC DELIVERY

Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Robin Lee Archer v. State of Florida, Case No. 20-6043**Capital Case***

Dear Mr. Harris:
On behalf of the Respondent in this matter, and pursuant to Rule 30.4, I respectfully
request a two-week extension of time to file the Brief in Opposition, extending the
December 16, 2020 deadline to December 30, 2020. The extension is necessary because
the Office of the Solicitor General recently assumed responsibility for this matter and has
a number of pressing deadlines in various other matters with limited staff assistance.
Counsel for Petitioner does not object to this extension of time.

Sincerely,
/s/ Amit Agarwal
Amit Agarwal
Counsel of Record

cc:

Martin J. McClain
Counsel of Record

